                              U.S. DEPARTMENT OF ENERGY
                             OFFICE OF INSPECTOR GENERAL




                   REPORT ON MATTERS IDENTIFIED AT THE
                       RICHLAND OPERATIONS OFFICE
              DURING THE AUDIT OF THE DEPARTMENT OF ENERGY'S
            CONSOLIDATED FISCAL YEAR 1998 FINANCIAL STATEMENTS




The Office of Inspector General wants to make the distribution of its reports as customer friendly
 and cost effective as possible. Therefore, this report will be available electronically through the
                          Internet at the following alternative addresses:


            U.S. Department of Energy Management and Administration Home Page
                                  http://www.hr.doe.gov/ig
                                             or
                                   http://www.ma.doe.gov


  Your comments would be appreciated and can be provided on the Customer Response Form
                  attached to the report. This report can be obtained from the:

                                   U.S. Department of Energy
                          Office of Scientific and Technical Information
                                           P.O. Box 62
                                  Oak Ridge, Tennessee 37831




Report Number: WR-FS-99-03                                    Western Regional Audit Office
Date of Issue: May 3, 1999                                  Albuquerque, New Mexico 87185
                   REPORT ON MATTERS IDENTIFIED AT THE
                       RICHLAND OPERATIONS OFFICE
              DURING THE AUDIT OF THE DEPARTMENT OF ENERGY'S
            CONSOLIDATED FISCAL YEAR 1998 FINANCIAL STATEMENTS




                                  TABLE OF CONTENTS

                                                                                Page

            SUMMARY… … … … … … … … … … … … … … … … … … … … … … ..… .             1

PART I -    APPROACH AND OVERVIEW… … … … … … … … … … … … ..… … … .               2

            Introduction… … … … … … … … … … … … … … … … … … … … … ..… … ..       2

            Scope and Methodology… … … … … … … … … … … … … … … ..… … … ...       2

            Observations… … … … … … … … … … … … … … … … … … ..… … … … … .        3

PART II -   AUDIT RESULTS… … … … … … … … … … … … … … … ..… … … … … ...           4

            1. Construction Work in Progress… … … … … … … … … … ..… … … … ...    4

            2. Accrued Expenses… … … … … … … … … … … … … … ..… … … … … ...       5

            3. Deferred Maintenance… … … … … … … … … … … … ..… … … … … … .       6

PART III - STATUS OF PRIOR YEAR OPEN FINDINGS AND
           RECOMMENDATIONS… … … … … … … … … … … … … … … … … … ...                7

            1. Legacy Waste Related Assets… … … … … … … … … … … … … … … … .      7

            2. Construction Work in Progress… … … … … … … … … … … … … … … ..     7
                                U.S. DEPARTMENT OF ENERGY
                               OFFICE OF INSPECTOR GENERAL
                                 OFFICE OF AUDIT SERVICES
                              WESTERN REGIONAL AUDIT OFFICE


                     REPORT ON MATTERS IDENTIFIED AT THE
                         RICHLAND OPERATIONS OFFICE
                DURING THE AUDIT OF THE DEPARTMENT OF ENERGY'S
              CONSOLIDATED FISCAL YEAR 1998 FINANCIAL STATEMENTS

Audit Report Number: WR-FS-99-03

                                             SUMMARY

        The Government Management Reform Act of 1994 requires that the Department of
Energy (DOE) annually submit audited financial statements to the Office of Management and
Budget (OMB). A departmentwide audit was conducted to determine whether there was
reasonable assurance that DOE's consolidated Fiscal Year (FY) 1998 financial statements were
free of material misstatements. We conducted a portion of the departmentwide audit at the
Richland Operations Office, its management and integrating contractor, Fluor Daniel Hanford,
Incorporated, and one of its integrated management and operating contractors, Battelle-Pacific
Northwest National Laboratory.

       The audit disclosed errors, as of September 30, 1998, in property, liability, and net cost of
operations accounts. Richland overstated its Construction Work in Progress (CWIP) account and
understated its Completed Property, Plant, and Equipment (CPP&E) and Accumulated
Depreciation accounts because completed assets remained in the CWIP account after the assets
were placed in service. Richland also misstated the Accrued Expenses and Net Cost of
Operations accounts because a contractor had not accrued costs for materials received. Finally,
Richland had not completed corrective actions on prior findings concerning write-downs of legacy
waste related assets and transfers of assets held by grantees from CWIP to CPP&E.

        We recommended that the appropriate accounts be adjusted and controls be established to
correct deficiencies noted. Management generally agreed with the recommendations and planned
to implement corrective actions.



                                                            _______(Signed)___________
                                                              Office of Inspector General
                                                 PART I

                                    APPROACH AND OVERVIEW

INTRODUCTION

       The Government Management Reform Act of 1994 requires that audited financial
statements covering all accounts and associated activities of DOE be submitted annually to OMB.
A departmentwide audit of the consolidated FY 1998 financial statements was conducted by
examining internal controls, assessing compliance with laws and regulations, evaluating
accounting transaction cycles, and testing selected account balances at various DOE facilities.

        The objective of the departmentwide audit was to determine whether DOE's consolidated
financial statements presented fairly, in all material respects, the financial position of DOE as of
September 30, 1998 and 1997, and its consolidated net cost, changes in net position, budgetary
resources, financing activities, and custodial activities for the fiscal years then ended in conformity
with federal accounting standards. Departmentwide issues are addressed in Audit Report No.
DOE/IG-FS-99-01, issued February 25, 1999.

        The purpose of this report is to inform Richland management of matters that came to the
attention of the Office of Inspector General (OIG) during the audit at Richland, Fluor Daniel, and
Battelle. Richland is responsible for the account balances entered into DOE's core accounting
system.

SCOPE AND METHODOLOGY

        The audit was conducted from April 1998 through January 1999 at the operations office in
Richland, Washington, and at Fluor Daniel and Battelle at the Hanford Site, Washington.
Specifically, we examined internal controls, assessed compliance with applicable laws and
regulations, and selectively tested account balances reported to DOE Headquarters to satisfy
departmentwide audit objectives.

         The audit was performed in accordance with generally accepted Government auditing
standards for financial audits. Since we relied on computer-generated data, we evaluated the
general and application control environment of certain financial systems and evaluated the
reliability of the data on a test basis.

        Because the audit was limited, it would not necessarily disclose all of the internal control
weaknesses that may have existed. Furthermore, because of inherent limitations in any system of
internal controls, errors or irregularities may nevertheless occur and not be detected. The issues
addressed in this report represent our observations of activities through the end of fieldwork on
January 5, 1999. Projection of any evaluation of the internal controls to future periods is subject
to the risk that procedures may become inadequate because of changes in conditions or that the
effectiveness of the design and operation of policies and procedures may deteriorate.


                                                   2
        In addition to the audit work conducted by the OIG, internal audit personnel and an
independent public accounting firm reviewed certain audit cycles. Fluor Daniel internal audit
personnel reviewed the Payroll Cycle at Fluor Daniel and recommended corrective actions to its
management in a separate report. An independent public accounting firm reviewed the Overview
Cycle and Financing and Revenue Cycle at Richland; the Fixed Assets and Disbursements Cycles
at Richland, Fluor Daniel, and Battelle; and the Pension and Other Post-Retirement Liabilities
Cycle at Fluor Daniel.

       The OIG considered all findings generated as a result of the reviews when preparing the
departmentwide report and the management report referred to in that report. The OIG is
addressing issues requiring local management's attention in this report.

        An exit conference was held with the Director, Financial Management Division, on
April 9, 1999.

OBSERVATIONS

                We found misstated accounts and internal control deficiencies. Specifically, Fluor
Daniel had not transferred an asset from CWIP to CPP&E when the asset was placed in service,
which caused CWIP to be overstated and CPP&E and Accumulated Depreciation to be
understated. In addition, Battelle's Accrued Expenses and Net Cost of Operations accounts were
understated by $330,000 because it had not accrued an expense for materials received.
Furthermore, Richland's deferred maintenance amount may be inaccurate because Richland had
not calculated its deferred maintenance according to DOE guidance. We recommended that
Richland adjust the appropriate accounts and establish controls to correct the deficiencies.
Management concurred with the findings and recommendations and developed plans to correct
the deficiencies disclosed.

       Finally, we noted that Richland had not completed corrective actions on two findings
contained in the prior year's report.

             Part II of this report provides additional details concerning the audit results and
management's comments. Part III provides the status of prior year open findings and
recommendations.




                                                 3
                                               PART II

                                         AUDIT RESULTS

1. Construction Work in Progress

        DOE's Accounting Handbook requires that assets be transferred from CWIP to CPP&E
"as close to the date of beneficial occupancy as possible, but generally not to exceed six months
after each operative unit is placed in full service." However, project T-100, which was occupied
in October 1997, was not transferred from CWIP to CPP&E as of September 30, 1998. This
occurred because Fluor Daniel personnel responsible for CWIP tend to wait until an entire project
is complete or all financial adjustments are made to individual cost accounts prior to completing
the necessary paperwork to close assets to CPP&E. As a result, Richland's CWIP account was
overstated and the CPP&E account was understated by approximately $25.5 million and the
Accumulated Depreciation account was understated by the amount of the applicable depreciation.

Recommendations

       We recommend that the Chief Financial Officer, Richland, direct Flour Daniel to:

       1. Make the necessary adjustments to its CWIP, CPP&E, and Accumulated Depreciation
          account balances to properly reflect the status of assets; and,

       2. Implement procedures to periodically review the status of all CWIP projects and cost
          accounts with and without recent activity to ensure that CWIP assets are closed within
          six months of beneficial occupancy or of placing the asset into service.

Management's Comments

         Management concurred with the finding and recommendations. Richland stated that it
would direct Fluor Daniel to make the necessary accounting adjustments. Richland also stated
that it would request the contractor to implement procedures to periodically review the status of
all open projects and assure the timely closing of completed project and equipment acquisition
costs. The target completion date is May 31, 1999.

Auditor Comments

      Management's comments and planned corrective actions are responsive to the finding and
recommendations.




                                                4
2. Accrued Expenses

        DOE's Accounting Handbook requires contractors to maintain accounts on an accrual
basis. According to the Handbook, costs must be identified with and recorded in the period
incurred, even if the payment was issued in a subsequent period. Battelle had not recorded an
accrued expense for materials received. After rejecting an invoice for materials received from an
international vendor, a Battelle contract manager did not determine the amount owed and did not
notify accounts payable of the requisite accrual. As a result, Battelle understated its accrued
expenses and net cost of operations by $330,000 at September 30, 1998.

Recommendations

       We recommend that the Chief Financial Officer, Richland:

       1. Determine whether this was an isolated instance and require Battelle to establish an
          accrued expense for all materials received before September 30, 1998; and,

       2. Direct Battelle to revise its procedures for accruals and approvals for invoices from
          international vendors to ensure appropriate accruals are made.


Management Comments

        Management concurred with the finding and recommendations. Management determined
that the above noted condition was an isolated situation. Management also made the accounting
adjustments and directed Battelle to review its accrual procedures. The review should be
completed by June 30, 1999.
Auditor Comments

      Management's response and corrective actions are responsive to the finding and
recommendations.




                                                5
3. Deferred Maintenance

        DOE directed Field Offices to use Condition Assessment Surveys to estimate deferred
maintenance on real property, including other structures and facilities (OSF), and to use periodic
inspections to estimate deferred maintenance for personal property having acquisition values
greater than $100,000. However, except for Battelle, Richland used maintenance building
information rather than Condition Assessment Surveys to estimate deferred maintenance for real
property. Although Richland started performing Condition Assessment Surveys and had a goal to
expand their use in FY 1999, it had not completed all assessments by the end of FY 1998. In
addition, Richland did not use periodic inspections to determine the amount of deferred
maintenance for any personal property having acquisition values greater than $100,000. Instead,
Richland used the maintenance backlog information or assumed there was no deferred
maintenance. Furthermore, Richland included only electrical and water systems and roads in its
deferred maintenance estimate for OSFs. As a result, DOE and Richland have reduced assurance
that the deferred maintenance amount is accurate.

Recommendations

       We recommend that the Chief Financial Officer, Richland, assure that all contractors:

       1. Perform Condition Assessment Surveys for all real property and periodic inspections
          for all personal property with acquisition values greater than $100,000; and,

       2. Include all OSFs in the deferred maintenance estimate.

Management's Comments

        Management concurred with the finding and recommendations. However, management
wanted to analyze alternatives before developing a corrective action plan. Management set a
target completion date of March 31, 1999.

Auditor Comments

       Management has indicated that it concurs with our recommendations. However,
management also indicated that it still may use methods other than those directed to calculate
deferred maintenance. Accordingly, we cannot determine if management's response properly
addresses the reported conditions.




                                                 6
                                             PART III

          STATUS OF PRIOR YEAR OPEN FINDINGS AND RECOMMENDATIONS

        This section provides the status of two open findings shown in the Report on Matters
Identified at the Richland Operations Office During the Audit of the Department of Energy
Consolidated Fiscal Year 1997 Financial Statements (Report Number WR-FS-98-02; June 8,
1998). These findings are still pending resolution or require further attention.

1. Legacy Waste Related Assets

        Fluor Daniel had not written down legacy waste related personal property in the 700 series
assets. In its Management Decision, Richland stated that it would direct Fluor Daniel to first
review equipment with values greater than $100,000. When this portion is completed June 30,
1999, Fluor Daniel would expand its review to equipment valued at less than $100,000.

Status

        During the FY 1998 audit, Management stated that it will continue to review 700 series
assets with values greater than $100,000 and write down those assets that primarily support
legacy waste activities. We are concerned, however, that Management does not now intend to
address assets with values less than $100,000. Richland should continue with the established
action plan that covered all 700 series assets and assure that all property primarily used for legacy
waste activities is written down to a net zero value.

2. Construction Work In Progress

         Richland had not transferred CWIP, held and placed in service by grantees, to CPP&E.

Status

        Richland took action to review its grants and make the necessary accounting adjustments.
However, Richland had not completed its review as of September 30, 1998, and set a completion
date of March 31, 1999.




                                                  7
                                                                           IG Report No.: WR-FS-99-03

                              CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and therefore ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?
2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?
3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?
4. What additional actions could the Office of Inspector General have taken on the issues discussed in
   this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.


Name                                         Date


Telephone                                    Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                              Office of Inspector General (IG-1)
                              Department of Energy
                              Washington, D.C. 20585

                              ATTN.: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
